OIG Audit Report GR-30-07-005

Office on Violence Against Women,
West Virginia Division of Criminal Justice Services,
Rural Domestic Violence and Child Victimization Enforcement,
Charleston, West Virginia

Audit Report GR-30-07-005


September 2007
Office of the Inspector General


Executive Summary


The Office of the Inspector General has completed an audit of the  Rural Domestic Violence and Child Victimization Enforcement grant (grant number 2004-WR-AX-0048) awarded by the Office on Violence Against Women (OVW) to the West Virginia Division of Criminal Justice Services (DCJS).  OVW awarded the 2-year, $552,334, grant to DCJS on August 2, 2004.  The grant program is designed to strengthen the safety of victims of domestic violence, dating violence, and child abuse by creating and enhancing collaborative partnerships between criminal justice agencies, victim services providers, and community organizations to respond to such crimes.  OVW provided a two year supplemental award, dated September 12, 2006, for $552,334.  We conducted our audit to determine whether:  claimed costs were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions; and grant objectives were achieved.
Our audit found that DCJS generally complied with grant requirements, and is in the process of achieving the grant objectives.  However, DCJS charged $21,088 of labor costs, which is not in compliance with the requirements of Office of Management and Budget Circular A-87, $4,984 in associated fringe benefit costs, and $11,256 of unsupported other direct costs.  Further, we noted the grantee made errors in both Financial Status Reports and semi-annual Progress Reports; and DCJS does not have a mechanism in place to measure the impact of grant funded services on victims of domestic violence.  Our report contains 8 recommendations.  We discussed the results of our audit with DCJS officials and have included their comments in the report as applicable. 







Return to OIG Home Page